No. 19-672
In the

Supreme Court of the United States
THE RAMS FOOTBALL COMPANY, LLC
AND E. STANLEY KROENKE,
Petitioners,
v.
ST. LOUIS REGIONAL CONVENTION AND SPORTS
COMPLEX AUTHORITY, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
Court of A ppeals of Missouri, Eastern District

RESPONDENTS’ BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI
Robert D. Blitz
Christopher O. Bauman
Kelley F. Farrell
Blitz, Bardgett
& Deutsch, L.C.
120 South Central Avenue,
Suite 1500
St. Louis, Missouri 63105
(314) 863-1500

James F. Bennett
Counsel of Record
Edward L. Dowd, Jr.
Michelle Nasser
Dowd Bennett LLP
7733 Forsyth Boulevard,
Suite 1900
St. Louis, Missouri 63105
(314) 889-7300
jbennett@dowdbennett.com

Counsel for Respondents
292941

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether the Missouri Court of Appeals correctly
interpreted state law regarding contract formation in
holding there was no agreement to arbitrate questions of
arbitrability where the contract contained no delegation
clause, the purportedly incorporated rules did not
authorize delegation at the time of contracting, and there
was no other evidence the parties intended at the time
of contracting to submit such gateway questions to an
arbitrator.

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
REASONS FOR DENYING THE PETITION  . . . . . 12
I.

The Missouri Court of Appeals’ Decision
Interpreted and Applied Missouri Law
and Did Not Decide A ny Significant
Federal Question  . . . . . . . . . . . . . . . . . . . . . . . . . 12
A. T he M issou r i Cou r t of Appea ls
Held The Parties Did Not Enter An
Agreement to Arbitrate Arbitrability
Under Missouri Law . . . . . . . . . . . . . . . . . . 12
B. The Missouri Court of Appeals Decision
Does Not Conflict With the Federal
Arbitration Act . . . . . . . . . . . . . . . . . . . . . . . 15

II. Petitioners Have Not Identified a Relevant
Conflict Warranting This Court’s Review  . . . . 19
III. This Case Does Not Present An Issue Worthy
of Review or of Continuing or Widespread
Significance.  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

iii
TABLE OF CITED AUTHORITIES
Page
CASES
Ajamian v. CanroCO2e, L.P.,
203 Cal. App. 4th 771, 137 Cal. Rptr. 3d 773 (2012) . 21
AT&T Tech., Inc v. Commc’ns Workers of Am.,
475 U.S. 643 (1986). . . . . . . . . . . . . . . . . . . . . . . . . 12, 13
Birkenmeier v. Keller Biomedical,
312 S.W.3d 380 (Mo. Ct. App. 2010) . . . . . . . . . . . . . .18
City of St. Joseph v. Lake Contrary Sewer Dist.,
251 S.W.3d 362 (Mo. Ct. App. 2008)  . . . . . . . . . . . . . 18
Crockett v. Reed Elsevier, Inc.,
No. 1-928 (U.S., filed Jan. 31, 2014) . . . . . . . . . . . . . . 24
Dish Network L.L.C. v. Ray,
900 F.3d 1240, 1245 (10th Cir. 2018) . . . . . . . 20, 23, 24
Dotson v. Dillard’s, Inc.,
472 S.W.3d 599 (Mo. Ct. App. 2015)  . . . . . . . . . . . . . . 9
Dunn Indus. Grp. v. City of Sugar Creek,
112 S.W.3d 421 (Mo. banc 2003) . . . . . . . . . . . . . . . . . 18
Eakins v. Corinthian Colls., Inc.,
2015 WL 758286 (Cal. Ct. App. Feb. 23, 2015)  . . . . 21
First Options of Chi., Inc. v. Kaplan,
514 U.S. 938 (1995)  . . . . . . . . . . . . . . . . . . 12, 13, 14, 18

iv
Cited Authorities
Page
Flandreau Pub. Sch. Dist. v.
G.A. Johnson Const., Inc.,
2005 S.D. 87, 701 N.W.2d 430 (2005)  . . . . . . . . . . . . 21
Gateway Exteriors, Inc. v. Suntide Homes, Inc.,
882 S.W.2d 275 (Mo. Ct. App. 1994)  . . . . . . . . . . . . . 18
Gilbert St. Developers, LLC v.
La Quinta Homes, LLC,
174 Cal. App. 4th 1185, 94 Cal. Rptr. 3d 918 (2009) . 21
Griffin v. First Cmty. Bank of Malden,
802 S.W.2d 168 (Mo. Ct. App. 1990)  . . . . . . . . . . . . . 18
Halliburton Energy Servs., Inc. v.
Ironshore Specialty Ins. Co.,
921 F.3d 522 (5th Cir. 2019) . . . . . . . . . . . . . . 20, 23, 24
Henry Schein, Inc. v. Archer & White Sales, Inc.,
139 S. Ct. 524 (2019) . . . . . . . . . . . . . . . . . . . . . . . . 8, 24
Huber v. N.J. Dept. of Envtl. Prot.,
131 S. Ct. 1308 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . 22
Int’l Longshoremen’s Ass’n v. Davis,
476 U.S. 380 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
McAllister v. St. Louis Rams, LLC,
No. 16-cv-172 (E.D. Mo. Nov. 17, 2017) . . . . . . . . . . . 24

v
Cited Authorities
Page
Montana v. Wyoming,
563 U.S. 368 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Rent-A-Center, West, Inc. v. Jackson,
561 U.S. 63 (2010)  . . . . . . . . . . . . . . . . . . . . 9, 12, 13, 18
Roubik v.
Merrill Lynch, Pierce, Fenner & Smith, Inc.,
181 Ill. 2d 373, 692 N.E.2d 1167 (1998) . . . . . . . . . . . 21
Scout Petroleum, LLC v.
Chesapeake Appalachia, LLC,
No. 15-1242 (U.S., filed Apr. 1, 2016) . . . . . . . . . . . . . 24
Simply Wireless, Inc. v. T-Mobile U.S., Inc.,
No. 17-1423 (U.S., filed Apr. 9, 2018) . . . . . . . . . . . . . 24
Soars v. Easter Seals Midwest,
563 S.W.3d 111 (Mo. banc 2018) . . . . . . . . . . 8, 9, 14, 18
Spirit Airlines, Inc. v. Maizes,
899 F.3d 1230 (11th Cir. 2018),
cert. denied, 139 S. Ct. 1322 (2019) . . . . . . . . 20, 23, 24
Spirit Airlines, Inc. v. Maizes,
No. 18-617 (U.S., filed Nov. 13, 2018)  . . . . . . . . . . . . 24
St. Louis Realty Fund v.
Mark Twain S. Cty. Bank,
651 S.W.2d 568 (Mo. Ct. App. 1983)  . . . . . . . . . . . . . 18

vi
Cited Authorities
Page
State ex rel. Pinkerton v. Fahnestock,
531 S.W.3d 36 (Mo. banc 2017) . . . . . . . . . . . . . . passim
Wells Fargo Advisors, LLC v. Sappington,
884 F.3d 392 (2d Cir. 2018) . . . . . . . . . . . . . . . 20, 23, 24
West v. AT&T Co.,
311 U.S. 223 (1940)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
STATUTES AND OTHER AUTHORITIES
9 U.S.C. § 1  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
9 U.S.C. § 2  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Sup. Ct. R. 10  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

1
Petitioners, the Rams Football Co. and Stanley
Kroenke, have filed a petition for a writ of certiorari to
the Missouri Court of Appeals challenging that court’s
interpretation and application of Missouri law. Specifically,
Petitioners challenge the intermediate state appellate
court’s holding that there was no antecedent agreement to
delegate questions of arbitrability to an arbitrator because
there was no evidence of contractual intent to do so at
the time the parties signed the underlying agreement.1
Petitioners’ attempt to create a federal question in this
state-law case by arguing that the Missouri Court of
Appeals improperly rejected the Federal Arbitration
Act’s (“FAA”), 9 U.S.C. §§ 1, et seq., equal-footing principle
and applied an arbitration-specific standard instead
of traditional contract principles. This argument fails,
however, for two reasons: It misrepresents the holding of
the Missouri Court of Appeals, and it relies on irrelevant
legal principles.
First, the intermediate state court did not reject
the equal-footing doctrine either expressly or by
implication, and it did not impose any extraneous or
heightened arbitration-only requirements. In State ex
rel. Pinkerton v. Fahnestock, 531 S.W.3d 36, 43 (Mo.
banc 2017), the Missouri Supreme Court definitively held
that the equal-footing doctrine applies to antecedent
1. At times, Petitioners also take issue with the Missouri
Court of Appeals’ holding that an arbitration provision in a 24
year-old lease did not apply to the parties’ current dispute because
the lease was not related to the resolution of Respondents’ claims.
The petition’s Question Presented, however, is limited to the
threshold question of whether the parties entered an agreement
to arbitrate questions of arbitrability. This Brief In Opposition
will focus entirely on that issue.

2
agreements to delegate arbitrability questions and
directed Missouri courts to apply traditional contract
principles in interpreting and enforcing those agreements.
The court below relied on Pinkerton throughout its
opinion in considering whether the parties entered such
an agreement here. Not surprisingly, the court never
purported to reject or limit the Missouri Supreme Court’s
binding authority. Given this, Petitioners’ assumption
that the Missouri Court of Appeals rejected the equalfooting doctrine would require that the court have done
so not only sub silentio but also in direct contravention
of the very decision which provided the express legal
framework for its analysis. That position defies logic and,
more fundamentally, rests, at its core, on a dispute over the
Missouri Court of Appeals’ interpretation and application
of Missouri law.
Second, Petitioners focus on largely irrelevant
legal principles under both Missouri contract law and
the FAA. This case is not about the interpretation of a
contract term or the incorporation of evolving standards
or procedures or the FA A’s equal-footing doctrine.
Rather, it is about whether the parties entered a valid
agreement to arbitrate gateway arbitrability questions
and the fundamental principle that a party cannot be
forced to arbitrate a dispute it has not agreed to submit
to arbitration. Delegation is not a mere contract term or
procedural rule. It is a separate contract, distinct from the
underlying arbitration agreement, and it must be validly
formed under state law. The Missouri Court of Appeals
held no such agreement was formed here because there
was no contractual intent to delegate at the time the
parties signed the documents containing the arbitration
provisions. Petitioners do not, and cannot, dispute that

3
fact. They cite no principle of Missouri contract law which
would allow a contract to be created by a rule change
years after the parties signed the relevant documents
when there was no agreement as to the essential term at
the time of contracting.
In short, this case presents no significant unresolved
or controverted federal question. There is no dispute
over an interpretation of a federal statute or the proper
federal standard. There is no established relevant conflict
among United States Courts of Appeals or state courts of
last resort, or even a decision of a United States Court
of Appeals or a state court of last resort to be reviewed.
There is no disregard for this Court’s precedents. A
state intermediate appellate court applied the standard
established by the state’s highest court on a matter of state
contract law and interpreted a contract according to that
law. The Missouri Supreme Court—after asking the Court
of Appeals to ensure they considered recent precedents—
saw no need to correct that court’s application and
interpretation of Missouri law and declined review in this
closely-watched case. There is nothing warranting this
Court’s review, and the issue presented has little to no
significance for anyone outside these parties. The petition
should be denied.
STATEMENT OF THE CASE
Petitioners would like this case to be about a clear
agreement to arbitrate and a state court’s hostility
towards that agreement—it is not. It is about Petitioners’
attempt to invoke an arbitration provision in an unrelated
lease agreement, and the Missouri Court of Appeals’
reasonable conclusion, under Missouri law, that: (1) the

4
court should decide questions of arbitrability because the
parties did not specifically agree to arbitrate gateway
questions at the time the lease was signed, and (2) the
lease agreement’s arbitration provision does not apply to
this unrelated dispute.
Although Petitioners invoke an arbitration provision
from a lease entered in connection with the Rams’s 1995
move to St. Louis, this case is not about that move or
the Petitioners’ stadium desires at the time or the nowexpired lease agreement 2 —it is about the Rams’s move
from St. Louis to Los Angeles in 2016 and the failure of
Petitioners to comply with the binding rules in the NFL’s
Relocation Policy. See generally Pet’rs’ App. 10-12 (Mo.
Ct. App. April 16, 2019). Specifically, Respondents have
alleged the following facts in support of their claims: For
years leading up to Petitioners’ departure from St. Louis,
Petitioners assured Respondents that the team intended
to remain in St. Louis and would negotiate in good faith
2. Much of Petitioners’ Statement of the Case is irrelevant
to the dispute before the Court. Most notably, this dispute has
nothing to do with the Rams’s stadium demands addressed in
the 1995 Lease or whether the St. Louis Convention and Visitors
Commission (CVC) complied with its obligations regarding the
old stadium in the 1995 Lease. It should be noted, however,
that contrary to Petitioners’ assertions, Respondents did not
participate or acquiesce in the arbitration regarding the 1995
Lease’s first-tier requirements. Respondents St. Louis City and St.
Louis County were never parties to that arbitration. Respondent
St. Louis Regional Convention and Sports Complex Authority
(RSA) was named as a party but was immediately and voluntarily
dismissed from the arbitration by the Rams after Respondent
filed a motion to dismiss and a motion for costs and fees because
the RSA had no obligations related to the dispute. Therefore, the
arbitration dispute was entirely between the Rams and the CVC.

5
as required by the Policy. Respondents spent significant
funds in reliance on those assurances. Pet’rs’ App. 11-12.
Privately, however, Petitioners planned to seek relocation
as soon as possible. In 2016, after refusing to put forth
any credible effort to work with Respondents to stay in St.
Louis, Petitioners petitioned the NFL under its Relocation
Policy for permission to relocate to Los Angeles. Pet’rs’
App. 10. This process was mandated by the NFL Policy,
and Petitioners have admitted that they could not have
relocated without receiving League approval. Pet’rs’ App.
11 n.2; Pet’rs’ App. 36 n.2 (Mo. Ct. App. Aug. 21, 2018).
The NFL teams and owners voted on the Petitioners’
petition multiple times: initially denying permission to
relocate, and then, after a significant lobbying effort,
approving the petition even though the conditions for
relocation were not satisfied. Respondents’ claims are
based on these breaches of the contractual obligations in
the NFL’s Relocation Policy and on Petitioners’ fraudulent
statements throughout the process. Pet’rs’ App. 11-12 (Mo.
Ct. App. April 16, 2019).
Contrary to Petitioners’ assertion, the parties did
not enter any agreement which “govern[ed] the Rams’[s]
tenure in St. Louis.” Cf. Pet. for Writ of Cert., p. 7. Rather,
the parties entered the 1995 Relocation Agreement, which
governed the specifics of the Rams’s move in 1995 from
Los Angeles to St. Louis, and Petitioner the Rams and
the Respondents entered the 1995 Amended Lease, which
provided Petitioners with the use of a publicly-funded
stadium and established the terms governing its use.
Petitioner Kroenke was not a signatory to the 1995 Lease. 3
3. Respondents have maintained throughout this litigation
that Petitioner Kroenke cannot invoke the arbitration provision in
an agreement he did not sign. The Missouri courts did not need to
address that argument as they held, correctly, that the arbitration

6
As relevant here, Petitioners seek to rely on the
arbitration provision in the 1995 Lease.4 That provision
indicated that “[a]ny controversy, dispute or claim
between or among any of the parties . . . to this Amended
Lease, related to this Amended Lease, including, without
limitation, any claim arising out of, in connection with, or
in relation to the interpretation, performance or breach
of this Amended Lease shall be settled by arbitration.”
(emphases added). Pet’rs’ App. 9-10 (Mo. Ct. App. April 16,
2019). Thus, the parties to the Lease agreed to arbitrate
disputes related to the Lease, including issues connected
with the interpretation, performance, or breach of that
agreement. The arbitration provision also provided
that the arbitration shall be “conducted before three
arbitrators in St. Louis, Missouri, in accordance with
the most applicable then existing rules of the American
Arbitration Association (or its successor or in the absence
provision does not apply to this dispute at all. See, e.g., Pet’rs’. App.
25 (Mo. Ct. App. April 16, 2019).
4. Petitioners refer to arbitration provisions in both the
Amended Lease and the 1995 Relocation Agreement. However,
Petitioners make no argument as to how the 1995 Relocation
Agreement is relevant to Respondents’ claims arising from
the Rams’s departure from St. Louis 20 years later, and the
arbitration provision in that agreement is effectively similar
to the provision from the Amended Lease. Pet’rs’ App. 10 (Mo.
Ct. App. April 16, 2019) (quoting Relocation Agreement: “Any
claim related to the Relocation Agreement, including without
limitation, any claim arising out of, in connection with, or in
relation to the interpretation, performance, or breach of this
Relocation Agreement shall be settled by arbitration as set forth
or as otherwise provided in Section 25 of the Amended Lease.”).
For ease of reference, this Brief In Opposition refers only to the
Amended Lease and its arbitration provision. The same arguments
apply equally to the 1995 Relocation Agreement.

7
of a successor, an institution or organization offering
similar services).” Pet’rs’ App. 9-10. The Lease expired
in 2016.
This lawsuit is not about the old stadium or any of the
rights or obligations in the corresponding 1995 Lease.
Respondents have not alleged any breach of the Lease,
and there is no need to interpret or apply the 1995 Lease
in resolving Respondents’ claims. Rather, this dispute
rests solely on the fact that the NFL teams and owners,
Petitioners included, agreed to be bound by the terms of
the NFL’s Relocation Policy and agreed that the Policy
governed any request for Relocation. Respondents have
alleged that Petitioners and the rest of the NFL violated
those terms in the conduct leading up to Petitioners’
relocation petition and in the consideration and vote on
relocation in 2016. There is nothing in the 1995 Lease that
impacts the resolution of those claims. 5
5. Petitioners suggest the Missouri courts have ignored their
defenses in ruling on the applicability of the arbitration provision,
but the court below did consider Petitioners’ defenses. Pet’rs’ App.
29 (Mo. Ct. App. Oct. 2, 2018). In any event, Petitioners do not
explain in any detail what defenses could require interpretation
of the Lease and impact the resolution of Respondents’ claims. At
best, they hint at a “right to relocate” in the Amended Lease, but
they also concede—as they must—that any purported “right” does
not override the binding requirements of the NFL’s Relocation
Policy. Petitioners have admitted in court that the Rams needed
permission to relocate from the other teams pursuant to the NFL’s
Policy, Pet’rs’ App. 11 n.2 (Mo. Ct. App. April 16, 2019), and their
conduct confirmed that fact as the Rams petitioned for approval
under the NFL Policy. Given that Respondents’ claims allege
violations of the Policy which Petitioners concede controlled, no
ambiguous “defense” under the 1995 Lease is relevant here, and
Petitioners do not attempt to explain how it could be.

8
Even so, Petitioners have vigorously litigated their
purported right to arbitrate under the 1995 Lease for
the last two-and-a-half years. They filed a motion to
compel arbitration in the Missouri Circuit Court, which
was denied in December 2017. The Court held that this
lawsuit fell outside the scope of the plain meaning of the
arbitration provisions because the suit was unrelated to
either the 1995 Lease or the 1995 Relocation Agreement.
Pet’rs’ App. 48 (Mo. Cir. Ct. Dec. 27, 2017). Petitioners did
not raise the issue or seek delegation of the arbitrability
question in their initial motion to compel, but they argued
in their reply that the recent decision of the Missouri
Supreme Court, State ex rel. Pinkerton v. Fahnestock,
531 S.W.3d 36, 43 (Mo. banc 2017), compelled the court to
leave gateway questions of arbitrability for the arbitrators.
The Court rejected Petitioners’ argument because, unlike
Pinkerton, the Court found no clear and unmistakable
evidence the parties agreed to delegate that gateway
question. Pet’rs’ App. 53.
The Missouri Court of Appeals affirmed, concluding
the parties did not enter into an arbitration agreement
which applies to Respondents’ claims. Pet’rs’ App. 31 (Mo.
Ct. App. Aug. 21, 2018). The Missouri Supreme Court
accepted transfer and then re-transferred the case back
to the Missouri Court of Appeals for reconsideration in
light of two recent decisions, this Court’s Henry Schein,
Inc. v. Archer & White Sales, Inc., 139 S. Ct. 524 (2019),
and the Missouri Supreme Court’s Soars v. Easter Seals
Midwest, 563 S.W.3d 111 (Mo. banc 2018).
The Missouri Court of Appeals’ second opinion (the
decision below) addressed the question of arbitrability
more fully. Specifically, the Missouri Court of Appeals

9
rejected Petitioners’ argument that an arbitrator must
decide whether the 1995 Lease’s arbitration provision
applies to this dispute even though the agreement
contained no such delegation clause. Pet’rs’ App. 14-19
(Mo. Ct. App. April 16, 2019). Following the direction of
the Missouri Supreme Court, and consistent with case law
from this Court, the Missouri Court of Appeals considered
whether there was “clear and unmistakable” evidence of
the parties’ affirmative contractual intent for an arbitrator
to decide arbitrability, as determined by state law. Pet’rs’
App. 15 (citing Pinkerton, 531 S.W.3d at 43, and Rent-ACenter, West, Inc. v. Jackson, 561 U.S. 63, 69 n.1 (2010)).
The Court of Appeals explained that “the language chosen
must unambiguously establish the ‘parties’ manifestation
of intent’ to withdraw from courts the authority to resolve
issues of arbitrability.” Pet’rs’ App. 15-16 (quoting RentA-Center, 561 U.S. at 69 n.1).
The Court then analyzed Missouri law and determined
that the ‘clear and unmistakable’ evidence standard
requires a clear expression of such an intent “measured
‘at the time the parties signed the underlying agreement.’”
Pet’rs’ App. 15 (quoting Pinkerton, 531 S.W.3d at 45 n.2)
(emphasis in original). The Court noted that a delegation
provision is merely “an additional antecedent agreement”
the court is asked to enforce. Pet’rs’ App. 16 (quoting Soars,
563 S.W.3d at 114 (delegation provision is an additional
antecedent agreement considered separately from the
underlying arbitration agreement). A court should look
to the terms of the underlying arbitration provision,
therefore, to see if the parties affirmatively addressed the
question of who decides arbitrability. Pet’rs’ App. 16 (citing
Dotson v. Dillard’s, Inc., 472 S.W.3d 599, 602 (Mo. Ct. App.
2015); Soars, 563 S.W.3d at 114). Accordingly, the Missouri

10
Court of Appeals considered whether there was evidence
in the arbitration provision that the parties to the Lease
intended, when the agreement was entered in 1995, for
an arbitrator to determine questions of arbitrability. The
Court concluded there was none: The contract language
expressed no such intent, and the referenced AAA rules
did not provide for delegation at the time the contract was
entered. Pet’rs’ App. 16-19.
As they do in their Petition, Petitioners argued
before the Missouri Court of Appeals that the arbitration
provision and the incorporation of the AAA rules provided
for the application of future rule amendments. Petitioners
further argued that, therefore, the 2003 rule providing
for delegation of arbitrability questions should apply
under Missouri law. 6 The Missouri Court of Appeals
acknowledged that the required evidence of contractual
intent could be expressed through the incorporation of a
rule providing for delegation. Pet’rs’ App. 15. The Court
explained, however, that Pinkerton directs courts to look
for “’a clear reference to an identifiable, ascertainable set
of rules’” measured at the time of contracting. Pet’rs’ App.
15 (citing Pinkerton, 531 S.W.3d at 45 n.2). The Court
then concluded that the parties’ general acceptance of
potential and unknown future rules did not provide clear
evidence the parties intended, at the time of contracting,
for an arbitrator to decide questions of arbitrability
because there was no identifiable, ascertainable rule
6. Petitioners argue that the rule was adopted in 1999 and
codified in 2003. Throughout this litigation, the Missouri courts
have considered the rule as a 2003 rule, and this brief continues to
use 2003 for consistency. For purposes presented here, it does not
matter. The significant point is that the rule was not identifiable to
the parties, or even in existence, when they signed the 1995 Lease.

11
authorizing delegation at that time. Pet’rs’ App. 16-19.
Specifically, the Court concluded that “an AAA arbitration
rule first appearing in 2003 could not provide ‘clear
and unmistakable’ evidence of the parties’ affirmative
contractual intent in 1995 for an arbitrator to have
exclusive jurisdiction to decide arbitrability” as required
under Missouri law. Pet’rs’ App. 7.
Having determined that the court must resolve the
gateway question of arbitrability, the Missouri Court of
Appeals then rejected Petitioners’ argument that the 1995
Lease’s arbitration provision applies to this dispute. The
Court noted that a party “cannot be required to arbitrate
a dispute they have not agreed to submit to arbitration”
and concluded that the parties did not agree to arbitrate
disputes over the obligations in the NFL’s Relocation
Policy. Pet’rs’ App. 20 (citation omitted). The Missouri
Court of Appeals further explained that the claims at
issue are wholly independent of the 1995 Lease and do
not require reference to or construction of the Lease and
that, therefore, the Lease agreement did not apply to this
dispute. Pet’rs’ App. 20-25. The Missouri Supreme Court
denied review. Pet’rs’ App. 1 (Mo. banc Sept. 3, 2019).

12
REASONS FOR DENYING THE PETITION
I.

The Missouri Court of Appeals’ Decision Interpreted
and Applied Missouri Law and Did Not Decide Any
Significant Federal Question.
A.

The Missouri Court of Appeals Held The
Parties Did Not Enter An Agreement to
Arbitrate Arbitrability Under Missouri Law.

The legal principles which drive the resolution of
this dispute are well-established and unquestioned. First
and foremost, arbitration is a matter of contract. See,
e.g., Rent-A-Center, 561 U.S. at 67; AT&T Tech., Inc v.
Commc’ns Workers of Am., 475 U.S. 643, 648 (1986). It is
axiomatic that a party cannot be forced to arbitrate an
issue it did not agree to submit to arbitration. See, e.g.,
AT&T Tech., 475 U.S. at 648-49; First Options of Chi.,
Inc. v. Kaplan, 514 U.S. 938, 945 (1995). Thus, arbitration
cannot be compelled until it is established that the parties
have entered a valid arbitration agreement and that the
particular dispute at issue falls within the scope of that
agreement. See, e.g., AT&T Tech., 475 U.S. at 649. Once
an agreement is found, however, it must be interpreted
and enforced like any other contract, based on traditional
state-law contract principles. See, e.g., First Options, 514
U.S. at 944.
The threshold question before assessing the validity
or scope of any arbitration provision is who—the court or
an arbitrator—decides whether that arbitration provision
applies. It is presumptively for a court to decide gateway
questions of arbitrability. See, e.g., AT&T Tech., 475 U.S.
at 649. However, like any other dispute, the parties can

13
agree to arbitrate those questions. Id. at 648-49. To do
so, the parties enter an antecedent agreement to delegate
arbitrability questions to the arbitrator, formed as any
other contract must be formed under state law and
separate and distinct from the underlying arbitration
agreement. See, e.g., Rent-A-Center, 561 U.S. at 69-72.
Given the importance and nature of the question, this
Court requires that the intent to enter an antecedent
delegation agreement be unambiguously expressed. See
id. at 69 n.1; First Options, 514 U.S. at 943-45; AT&T
Tech., Inc., 475 U.S at 649. The parties must specifically
intend to delegate resolution of arbitrability away from
the court, and clear and unquestionable evidence of that
intent is necessary to avoid forcing parties to arbitrate an
issue (arbitrability) they did not agree to submit:
On the other hand, the former question — the
‘who (primarily) should decide arbitrability’
question — is rather arcane. A party often
might not focus on that question or upon the
significance of having arbitrators decide the
scope of their own powers. And, given the
principle that a party can be forced to arbitrate
only those issues it specifically agreed to submit
to arbitration, one can understand why courts
might hesitate to interpret silence or ambiguity
on the ‘who should decide arbitrability’ point
as giving the arbitrators that power, for doing
so might too often force unwilling parties to
arbitrate a matter they reasonably would have
thought a judge, not an arbitrator, would decide.
First Options, 514 U.S. at 945 (citations omitted).

14
The Missouri Court of Appeals properly applied this
legal framework to the facts presented and determined
there was no clear and unmistakable evidence the parties
formed an agreement to delegate arbitrability questions
under Missouri law. Pet’rs’ App. 14-19 (Mo. Ct. App.
April 16, 2019). The Court noted that an antecedent
delegation agreement could be evidenced by an express
delegation provision, as in Soars, 563 S.W.3d at 114, or
by incorporation of an “identifiable, ascertainable rule,”
as in Pinkerton, 531 S.W.3d at 45, 48, but found neither
was present here. In particular, the Court of Appeals
concluded that, under Missouri law, the contractual intent
to delegate is to be measured at the time the underlying
agreement was signed and that, here, there was no clear
evidence the parties agreed to delegate arbitrability
questions at the time the Lease was signed in 1995. Pet’rs’
App. 15, 19 (relying on Pinkerton, 531 S.W.3d at 45 n.2).
Petitioners do not—and cannot—dispute that fact.
In holding that the parties must intend to enter an
agreement at the time of purported contracting, the
Missouri Court of Appeals did not rely significantly on
federal law or the “heightened” nature of the clear and
unmistakable evidence standard. Rather, the problem with
Petitioners’ argument was that evidence of the requisite
intent to form an antecedent agreement was wholly nonexistent at the time the underlying agreement was signed.
In fact, there is no evidence the prospect of arbitrating
arbitrability was even considered at the time the parties
entered into the Lease. Cf. First Options, 514 U.S. at
945 (noting that clear and unmistakable evidence of an
agreement to delegate is necessary because “‘who should
decide arbitrability’” is an “arcane” question the parties
could easily overlook). The Missouri Court of Appeals held

15
that a subsequent amendment to potentially incorporated
rules could not retroactively create an intent to contract
where none existed when the parties signed the relevant
documents. Petitioners ask this Court to correct the
Missouri Court of Appeals’ interpretation of Missouri
contract-formation principles. As discussed below, there
was no error, and, regardless, this fact-dependent request
for error-correction of the interpretation and application
of state law is not appropriate for this Court’s review.
B. The Missouri Court of Appeals Decision Does
Not Conflict With the Federal Arbitration Act.
Petitioners try to create a federal issue by suggesting
that the Missouri Court of Appeals’ decision violates
the FAA. Specifically, Petitioners argue that the Court
of Appeals rejected the FAA’s “equal-footing” doctrine,
9 U.S.C. § 2, by applying a heightened standard to the
purported agreement to arbitrate arbitrability that
Missouri law does not apply to other contracts. Petitioners’
argument fails, however, because they ignore the Missouri
Supreme Court’s definitive statement of Missouri law and
mischaracterize the opinion below and Missouri contract
principles.
First, Petitioners’ a rg ument is substantially
undermined by the Missouri Supreme Court’s decision
in Pinkerton, which explored the clear and unmistakable
evidence standard and the recognition of antecedent
delegation ag reements under Missou r i law. See
generally 531 S.W.3d 36. As significant here, Pinkerton
expressly held that the equal-footing doctrine applies to
antecedent agreements to arbitrate arbitrability. Id. at
48. In Pinkerton, the Missouri Supreme Court considered

16
whether there was clear and unmistakable evidence
the parties agreed to delegate arbitrability when the
parties’ agreement incorporated identifiable rules which
provided for delegation of such gateway questions at the
time the contract was entered. The Court concluded that
incorporation of the clear delegation rule was sufficient
under Missouri law to create an agreement to arbitrate
arbitrability. Id. at 45.
In so doing, the Missouri Supreme Court affirmed that
traditional contract principles—and traditional contract
principles alone—control whether the parties have formed
a valid agreement to delegate. Id. at 47. Specifically, the
Missouri Supreme Court stated that courts “cannot make
a rule specifically applicable to arbitration delegation
clauses” and that “[a]rbitration agreements are placed on
equal footing with other contracts.” Id. at 47, 48 (quotations
omitted). Thus, the Court directed Missouri courts to
“examine arbitration agreements in the same light as
they would examine any contractual agreement.” Id. at 48
(quotations omitted). It is clear, therefore, under Missouri
law, that the question of whether parties entered an
agreement to arbitrate arbitrability must be determined
under traditional state-law contract formation principles.
The Missouri Court of Appeals did exactly that.
The Court of Appeals relied on Pinkerton throughout
its decision and considered whether there was a clear
manifestation of an intent to delegate questions of
arbitrability at the time the underlying agreement was
signed. The court below did not reject, criticize, or
limit Pinkerton’s holding regarding the equal-footing
doctrine, and it did not purport to rely on anything other
than Missouri contract principles in determining if an

17
agreement to delegate had been formed. Nor could the
intermediate state court have held otherwise, as it was
bound by the Missouri Supreme Court’s exposition of
Missouri law. The Missouri Supreme Court saw no need
to correct the Missouri Court of Appeals’ interpretation
and application of state law in this closely-watched case.
Petitioners’ complaint that the Court of Appeals should
not have evaluated the Pinkerton standard at the time
of contracting under Missouri law does not implicate any
significant federal question or warrant this Court’s review.
Second, the Missouri Court of Appeals’ decision does
not reject the equal-footing doctrine sub silentio and
is wholly consistent with applicable Missouri contract
law. Petitioners try to avoid the obvious lack of a federal
question by arguing, in essence, that the Missouri Court
of Appeals must have impliedly rejected the equal-footing
doctrine in this context because its decision is contrary
to Missouri contract principles. Of course, this argument
is simply a re-packaging of Petitioners’ challenge to the
Missouri Court of Appeals’ interpretation and application
of state law. But even leaving aside the state-law nature of
the issue, Petitioners’ argument fails because they do not
focus on the appropriate principles of Missouri contract
law.
Petitioners are correct that Missouri law allows
parties to incorporate evolving procedural rules and
standards into contractual agreements, but that principle
is irrelevant here. The issue of who determines the
validity and scope of an arbitration provision is not a
mere procedural rule or contract term, and the court is
not being tasked with determining the general rules to
govern the conduct of an arbitration. Thus, the Missouri

18
cases relied on by Petitioners are all inapposite. See Dunn
Indus. Grp. v. City of Sugar Creek, 112 S.W.3d 421, 435
n.5 (Mo. banc 2003) (per curiam) (separate construction
contract was not incorporated by reference); City of St.
Joseph v. Lake Contrary Sewer Dist., 251 S.W.3d 362, 36769 (Mo. Ct. App. 2008) (ordinances pertaining to sewers
and sewage); Griffin v. First Cmty. Bank of Malden,
802 S.W.2d 168, 170 (Mo. Ct. App. 1990) (service and
maintenance charges adopted by bank); St. Louis Realty
Fund v. Mark Twain S. Cty. Bank, 651 S.W.2d 568, 573
(Mo. Ct. App. 1983) (interest rate).
Rather, an antecedent delegation agreement is itself
a contract—separate and distinct from the underlying
arbitration agreement—and that contract must be validly
created under state-law contract formation principles.
See, e.g., Rent-A-Center, 561 U.S. at 69-72; First Options,
514 U.S. at 944; Soars, 563 S.W.3d at 114. Pursuant to
fundamental Missouri contract law, the parties must
agree to all essential terms of an agreement at the time
of contracting. “If the parties have reserved the essential
terms of the contract for future determination, there
can be no valid agreement.” Gateway Exteriors, Inc. v.
Suntide Homes, Inc., 882 S.W.2d 275, 279 (Mo. Ct. App.
1994); see also Birkenmeier v. Keller Biomedical, 312
S.W.3d 380, 392 (Mo. Ct. App. 2010) (same). The essential
term of an antecedent delegation agreement is whether
the parties agreed to arbitrate the gateway questions
of arbitrability. Therefore, under traditional Missouri
contract principles, there must be an actual agreement
to delegate at the time of contracting. Not surprisingly,
Petitioners have identified no contrary authority which
would allow a binding agreement to be created upon the
happening of some unknowable event years in the future

19
even though the parties did not intend to form such a
contract when the relevant documents were signed.
Given these fundamental principles of Missouri law,
it is plain the parties did not form a valid agreement to
arbitrate arbitrability. The Lease does not expressly
address who should determine questions of arbitrability,
and there was no rule that delegated arbitrability to an
arbitrator in 1995. Even if the parties agreed the rules
governing the conduct of the arbitration could change in
the future, the parties had no way of knowing in 1995
that years later those rules would delegate questions of
arbitrability to an arbitrator. A subsequent rule change
cannot force parties to arbitrate a dispute they did not
specifically agree to submit to arbitration. The Missouri
Court of Appeals’ conclusion that the 1995 Lease does not
express an antecedent delegation agreement is wholly
consistent with Missouri contract law.
II. Petitioners Have Not Identified a Relevant Conflict
Warranting This Court’s Review.
Petitioners try to manufacture a conflict among the
lower courts by arguing that there is confusion over the
proper interplay between the equal-footing doctrine and
the clear and unmistakable evidence standard. Whatever
confusion Petitioners believe they have uncovered,
however, is not implicated here, if it exists at all. Most
fundamentally, Petitioners’ purported conflict does not
justify this Court’s review because it simply does not
matter here. As explained above, Missouri law does apply
the equal-footing doctrine to agreements to arbitrate
arbitrability, and the Missouri Court of Appeals did
not reject that proposition or purport to limit it in any

20
manner. Thus, Missouri has already adopted the position
Petitioners now propose.
Furthermore, any conflict among the lower courts
is largely illusory and, at best, poorly defined and
undeveloped. For example, none of the federal Courts
of Appeals’ decisions cited addressed the same question
as presented here. Rather, the decisions all involved
contracts which were entered after the incorporated rules
provided for delegation of arbitrability questions, and
many of the cases addressed the plainly distinguishable
issue of class arbitration. See Dish Network L.L.C. v. Ray,
900 F.3d 1240, 1245 (10th Cir. 2018) (contract was entered
after incorporated rules provided for delegation and case
involved class arbitration); Spirit Airlines, Inc. v. Maizes,
899 F.3d 1230, 1233-34 (11th Cir. 2018), cert. denied 139
S. Ct. 1322 (2019), (same); Halliburton Energy Servs.,
Inc. v. Ironshore Specialty Ins. Co., 921 F.3d 522, 538
(5th Cir. 2019) (contracts entered after incorporated rules
provided for delegation); Wells Fargo Advisors, LLC v.
Sappington, 884 F.3d 392 (2nd Cir. 2018) (same). Clearly,
the incorporation of an existing rule is fundamentally
distinct from the question of whether incorporation of
the potential for a future rule can create the requisite
contractual intent. Petitioners have identified no holdings
of the federal Courts of Appeals with respect to the latter
question.
Similarly, on the other side, the purportedly contrary
decisions of state courts of last resort cited by Petitioners
do not contain any clear holdings regarding the equalfooting doctrine or arbitration-specific rules. As with the
Missouri Court of Appeals’ decision below, the cases cited
do not expressly reject the application of the equal-footing

21
doctrine in this context, and they do not suggest that the
creation of an antecedent agreement to delegate requires
more than would be necessary to form a contract under
traditional state-law contract formation principles. See
Flandreau Pub. Sch. Dist. v. G.A. Johnson Const., Inc.,
2005 S.D. 87, ¶ 2, 701 N.W.2d 430, 432 (2005); Roubik v.
Merrill Lynch, Pierce, Fenner & Smith, Inc., 181 Ill.
2d 373, 374, 692 N.E.2d 1167, 1168 (1998); cf. Eakins v.
Corinthian Colls., Inc., 2015 WL 758286, at *7 (Cal. Ct.
App. Feb. 23, 2015); Ajamian v. CanroCO2e, L.P., 203 Cal.
App. 4th 771, 783, 137 Cal. Rptr. 3d 773, 783 (2012); Gilbert
St. Developers, LLC v. La Quinta Homes, LLC, 174 Cal.
App. 4th 1185, 1194, 94 Cal. Rptr. 3d 918, 924 (2009).
In short, there is no conflict among, or even relevant
decisions by, the federal Courts of Appeals; the cited
decisions of state courts of last resort do not contain
holdings which conflict with federal law; and, most
importantly, even if confusion existed, it is not implicated
here because Missouri law very clear holds that the equalfooting doctrine applies in this context. Petitioners are
left with a complaint that the decision below conflicts
with other courts’ interpretation of Missouri law and the
observation that some federal district courts have reached
contradictory conclusions under the laws of other states.
Disagreement over Missouri law—or any state’s law—is
not the type of conflict justifying this Court’s jurisdiction
and consideration. See, e.g., Int’l Longshoremen’s Ass’n v.
Davis, 476 U.S. 380, 387 (1986) (“[W]e have no authority
to review state determinations of purely state law . . . .”).

22
III. This Case Does Not Present An Issue Worthy
of Review or of Continuing or Widespread
Significance.
Even if this Court wanted to address the interplay
between the equal-footing doctrine and the clear and
unmistakable evidence standard, this is not a good case
in which to do so. First, this Court’s review would not
change the outcome. As explained, the Missouri Court of
Appeals relied on state law and applied Missouri Supreme
Court decisions to the facts presented. In so doing, the
intermediate state appellate court did not purport to
require anything beyond the traditional requirements
for contract formation under Missouri law. Given this,
any instruction by this Court to apply Missouri law and
general contract principles would not result in a different
outcome, and the accuracy of the Missouri Court of
Appeals’ interpretation of Missouri law is not before this
Court.
Second, while the decision below is from a state
intermediate appellate court, the conflicts which typically
may warrant certiorari and this Court’s resolution are
conflicts involving decisions of the United States Courts of
Appeals or state courts of last resort. Sup. Ct. R. 10. Those
decisions frequently present the effective final word on an
issue for a significant geographic area, and this Court may
be called upon to reconcile inconsistent interpretations of
federal law applicable in different areas of the country.
The same is not true for decisions of state intermediate
appellate courts. Cf., e.g., Huber v. N.J. Dept. of Envtl.
Prot., 131 S. Ct. 1308 (2011) (the Chief Justice, Scalia,
Thomas and ALITO, JJ., statement respecting denial of
certiorari) (“[B]ecause this case comes to us on review

23
of a decision by a state intermediate appellate court, I
agree that today’s denial of certiorari is appropriate.”).
State intermediate appellate court decisions often have
a narrower reach and can be corrected or amended,
if necessary, by the state court of last resort. This is
particularly significant when, as here, the decision
encompasses substantial and pervasive state-law issues.
It is a state’s highest court which has the right and
responsibility to definitively interpret the contours of state
law. See, e.g., Montana v. Wyoming, 563 U.S. 368, 377 n.5
(2011) (“The highest court of each State, of course, remains
‘the final arbiter of what is state law.’” (quoting West v.
AT&T Co., 311 U.S. 223, 236 (1940))). The Missouri Court
of Appeals, below, simply interpreted the contract before
it; it did not purport to establish a generally applicable
rule under Missouri law, and its decision will not have the
effect of doing so.
Third, even when phrased in its most general terms,
the issue raised in the petition has little national or
continuing significance. Petitioners have identified only
a handful of cases over the last 15 years which address
the issue presented here, in its general form. See Pet. for
Writ of Cert., pp. 18-23.7 The AAA rules were amended
7. Most of the decisions cited by Petitioners as recognizing an
agreement to delegate do not involve the same question presented
here because they either address the issue of class arbitration and/
or involve an arbitration agreement entered after the incorporated
rule provided for arbitration of arbitrability questions. See, e.g.,
Dish Network, 900 F.3d at 1245; Spirit Airlines, 899 F.3d at 1234;
Halliburton Energy Servs., 921 F.3d at 538; Wells Fargo Advisors,
884 F.3d 392. Similarly, Petitioners cite four petitions for writ of
certiorari submitted over the last five years, Pet. for Writ of Cert.,
p. 31, but none of the petitions presented a comparable question for

24
16 years ago to provide for delegation of arbitrability
questions. Therefore, only contracts which were entered
before 2003 without an express delegation provision and
which incorporate the AAA rules have the potential to
create the question presented here. Not surprisingly, the
only cases Petitioners cite addressing this issue within
the last eight years are the two cases which involve this
particular arbitration agreement: the Missouri Court of
Appeals decision below and McAllister v. St. Louis Rams,
LLC, No. 16-cv-172 (E.D. Mo. Nov. 17, 2017). 8 In short, this
state-law issue has never engendered widespread interest,
and it is, at best, of declining significance and unlikely to
recur with any frequency.
Finally, any problem Petitioners perceive could easily
be avoided in the drafting of the arbitration agreement.
There is no need for this Court to add clarity; the rule
is already clear. If an agreement to delegate gateway
review. See Spirit Airlines, Inc. v. Maizes, No. 18-617 (U.S. filed
Nov. 13, 2018) (questions presented involved standard for class
arbitrability); Simply Wireless, Inc. v. T-Mobile U.S., Inc., No.
17-1423 (U.S. filed Apr. 9, 2018) (presented similar question to that
addressed in Henry Schein, 139 S. Ct. at 524, regarding wholly
groundless exception); Scout Petroleum, LLC v. Chesapeake
Appalachia, LLC, No. 15-1242 (U.S. filed Apr. 1, 2016) (questions
presented involved contract entered after incorporated rules
provided for delegation and issues of class arbitrability); Crockett
v. Reed Elsevier, Inc., No. 1-928 (U.S. filed Jan. 31, 2014) (questions
presented involved issues regarding class arbitrability).
8. The other more recent cases cited by Petitioner involve
contracts entered after the incorporated rules were amended to
provide for delegation. See, e.g., Wells Fargo Advisors, 884 F.3d
392; Dish Network, 900 F.3d at 1245; Spirit Airlines, 899 F.3d at
1234; Halliburton Energy Servs., 921 F.3d at 538.

25
questions of arbitrability is established by clear and
unmistakable evidence, that agreement will be enforced.
Parties, therefore, know how to structure their agreements
so as to include an enforceable delegation provision and
provide certainty for financial dealings. The fact that the
parties here failed to include such a provision does not
impact any other arrangement.
CONCLUSION
For the foregoing reasons, Respondents respectfully
request that this Court deny the Petition for Writ of
Certiorari to the Missouri Court of Appeals.
Respectfully submitted,
Robert D. Blitz
Christopher O. Bauman
Kelley F. Farrell
Blitz, Bardgett
& Deutsch, L.C.
120 South Central Avenue,
Suite 1500
St. Louis, Missouri 63105
(314) 863-1500

James F. Bennett
Counsel of Record
Edward L. Dowd, Jr.
Michelle Nasser
Dowd Bennett LLP
7733 Forsyth Boulevard,
Suite 1900
St. Louis, Missouri 63105
(314) 889-7300
jbennett@dowdbennett.com

Counsel for Respondents

